1

*

t

I
I

1

t

!

i

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-3069
Matthew Staszak
Plaintiff - Appellant
v.
United States of America; Darlene Gallardo, Unit Manager, Individually and in her official
capacities
Defendants - Appellees
Appeal from U.S. District Court for the Eastern District of Arkansas - Delta
(2:19-cv-00052-KGB)
JUDGMENT
Before SHEPHERD, GRASZ, and KOBES, Circuit Judges.
This appeal from the United States District Court was submitted on the record of the
district court and briefs of the parties.
After consideration, it is hereby ordered and adjudged that the judgment of the district
court in this cause is affirmed in accordance with the opinion of this Court.
May 13,2021

Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
Is/ Michael E. Gans

Appellate Case: 20-3069

Page: 1

Date Filed: 05/13/2021 Entry ID: 5035039

>*■

i

i

i
i

r

i

1

!
1
t

t

<
i

i

I
f

f

i

r

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-3069
Matthew Staszak
Appellant
v.
United States of America and Darlene Gallardo, Unit Manager, Individually and in her official
capacities
Appellees

Appeal from U.S. District Court for the Eastern District of Arkansas - Delta
(2:19-cv-00052-KGB)
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
July 13,2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
Isf Michael E. Gans

Appellate Case: 20-3069

Page: 1

Date Filed: 07/13/2021 Entry ID: 5054021

t

t
[

r

r

l
i

f

i

Case2:19-cv-00052-KGB-PSH Documents Filed05/20/19 Page9of 11

Affidavit of Terry M. Green
STATE OF ILLINOIS

)
)».
COUNTY OF FRANKUN )

Terry M. Green, first being duly sworn, states:
1. That I am the attorney for Matthew Stas2ak and represent him in the Southern District of Illinois in case No. 15CV-20-JPG and Criminal No. 12-CR-40064-JPG.
2. That on the afternoon of November 30,2018,1 was scheduled to have an important telephone conference with
Mr. Staszak concerning issues in die above described case. I believe the call had been set up originally by his
counselor.
3. That a short time after the call commenced I was told by the manager, a Ms. Gallardo, that Matthew Staszak
and I could not continue the call as It was initially set up. As I recall there was an issue having to do with my
client using the phone line or office as previously planned.
4.

I told Mr. Staszak, who was being relocated, that if we wished to talk further, In so many words to be careful
what he had to say on his end. As I recall, I told him I'd do most of the talking as I was uncertain what the
arrangements now were.

5. We continued on in this unusual manner discussing the matters of why the call was arranged in the first
instance.
6. The manager came on the phone again (by my count the 3rt time) and informed me that we'd have to finish the
call later.
7. This is the first time in the last 20+ years that I have had this experience of trying to complete an important
conversation with a client in federal custody.
8. This problem with the call was difficult and upsetting and not the least conducive of Attorney-Client
communication.
Further affiant sayeth not.

k
Terry M. Green, Afkant
Subscribed and sworn to before me
is

.day of January, 2019.

Notarwublic

OFFICIAL SEAL
ROSEMARY SKUTA
NOTARY PUBJC • STATE OF ILLINOIS
MY COMMSOON EXPRES:12/20/19 '
*

EXHIBIT

3

[

s

t

»

r

!

f

(

i

i

[

;

i

Case 2:19-cv-00052-KGB-PSH Document 3 Filed 05/20/19 Page 5 of 11

AFFIDAVIT OF MATTHEW L. STASZAK
I Certify under penalty of perjury under 28 U.S.C.
Section 1746 that the foregoing facts are true and correct to
the best of my knowledge.
1. That I am the Petitoner in ongoing litigation
for Case No. 15-cv-00020-JPG within the jurisdiction of the
Southern District of Illinois.. I am over the age of 18 and I am
of sound judgment, honesty, truthfulness and character. I am
currently represented by Counsel Terry M. Green in the above
styled case, in which, is the primary concern of this Affidavit
sworn.
2. On November 30, 2018, around 1430 hours while I
was located within the confines of the FCC Forrest City (Low)
Wynne Building and inside the. office of Unit Manager Darlene
Gallardo my Attorney-Client Privlege was violated by Gallardo.
3. My Attorney/Counsel is aware of this incident
and is inolraetj a ..witness thereof to this violation. I am under
the impression that Counsel will file an Affidavit to this
incident at a later time.
4. That currently I have filed Informal Resolution
or known as a BP-8 and that the BP-8 has not been answered by
Darlene Gallardo as to present date of January 12, 2019.
5. That currently I have filed a BP-9 to the Complex
Warden where it has been "REJECTED" due to reasons that are
improper and/or false information provided to Affiant on January
9, 2019, by W-A Unit Secretary.
6. That currently I have completed the BP-10 to be
submitted to the South Central Regional Director and mailed to
the Director upon receiving an Affidavit from Counsel Green.
7.

That the facts of the incident are as follows:

a. ) Gallardo subjected Staszak and his Counsel to a rude,
unprofessional interruption by barging into Case Manager
Danaher's Office;
b. ) the attorney-client call was important between Green/Staszak
as Staszak had important matters - to*discuss with his Counsel
(that he has yet been able to discuss with his attorney);
c. ) that Staszak's Unit Counselor K. Brister scheduled the
call in the privacy of Danaher's Office, in which, Staszak has
used Danaher s Office in the past, more than once, to conduct
his private calls with his attorney without rude and unprofess­
ional interruption from any member of staff to include M. Danaher;

EXHIBIT

2

Case 2:19-cv-00052-KGB-PSH Documents Filed 05/20/19 Page 6of 11

d. ) that Gallardo brazenly informed Staszak his Attorney-Client
call must end immediately;
e.) that Staszak was informed by Gallardo to pack all of his
legal documents and move immediately to Gallardo's Office;

f.) Staszak responded to Gallardo's demands by responding
respectfully but firmly: "No, I am not comfortable with this.";
g.) Gallardo then grabbed the phone receiver from Staszak and
began conversing with Staszak's Counsel;
h. )

Gallardo and Green had a brief dialogue;

i. ) Staszak was handed back the phone where his Counsel
advised him: "Move to the other office but watch what you say.
We heed to get this done.";
j. ) Staszak reluctantly moved to Gallardo's Office as she
had demanded;
k. ) that about 15 minutes later interrupted again after intently
listening to Staszak's Attorney-Client call, which appeared to
cause Gallardo to become ire and frustrated with Staszak due to
his limited speech with his attorney, where at this time Gallardo
again grabbed the phone from Staszak and demanded end;
l. ) that after a few more minutes and by this time Staszak
being under a state-of duress by Gallardo demanded that Staszak
end the call within fifiteen minutes being the third interruption
of the privllegedr-call by Gallardo;
m.) that Gallardo's misconduct violated Staszak's AttorneyClient Privileges due to the fact she insisted to remain in the
room for the call and intently listen to Staszak's privileged
communications and informations with his Counsel;
n. ) that this is a once and again attempt by the Government,
based upon information and belief of Staszak, of further
retaliation and harrassment b.y Officers and Agents of the
Government due to the already obvious display of the wide-open,
take-no-prisoners approach of past witnessed displays of
Government conduct.both publically and in writing;
o.) * that Staszak expected this type of miscondifct at some
point upon his return to FCC Forrest City from the Southern
District of Illinois by the Government, due to the chain-ofevents displayed by the Government during the Evidentiary
process.

EXHIBIT

2

Case 2:19-cv~00052-KGB-PSH Document 3 Filed 05/20/19 Page 7 of 11

p.) and that Staszak has full intentions of filing litigation
against the United States and Darlene Gallardo due to the
misconduct committed by Gallardo within her official and
individual capacities as a federal officer for the United States
Government and that Staszak will seek damages.
VERIFICATION
I, Affiant, Matthew L. Staszak, Reg No. 24227-171
by my signature below pursuant to 28 U-S.C* Section 1746, Declare
under Penalty of Perjury that the fore going is factual true
and correct based upon personal knowledge.
Date:

January 12, 2019

Respectfully submitted,

P.0. Box 9000-Low
Forrest City, Arkansas 72336-9000

EXHIBIT

2

